HHS/OIG, Audit -"Review of Medicare Northwest Data Center Claims Processing Costs for Fiscal Year 2000,"( A-10-03-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Northwest Data Center Claims Processing Costs for Fiscal Year 2000," (A-10-03-00001)
April 25, 2003
Complete
Text of Report is available in PDF format (2.37 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicare Northwests data center costs represented reasonable and
allowable costs in conformity with the reimbursement principles contained in the Federal Acquisition Regulation and the
conditions set forth in the Inter-Plan Operating Agreements between Medicare Northwest and other Medicare contractors who
utilized the services of the data center.  Based on our review, we concluded that the $4,306,787 of data center costs
billed to other Medicare contractors for fiscal year 2000 was reasonable and allowable.